<html>
<title> - S. Hrg. 110-1260 HEARING ON THE NOMINATION OF THOMAS J. MADISON, JR., TO BE ADMINISTRATOR OF THE FEDERAL HIGHWAY ADMINISTRATION FOR THE DEPARTMENT OF TRANSPORTATION</title>
<body><pre>[Senate Hearing 110-1260]
[From the U.S. Government Publishing Office]



 

                                                       S. Hrg. 110-1260


      HEARING ON THE NOMINATION OF THOMAS J. MADISON, JR., TO BE 
ADMINISTRATOR OF THE FEDERAL HIGHWAY ADMINISTRATION FOR THE DEPARTMENT 
                           OF TRANSPORTATION

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 30, 2008

                               __________

  Printed for the use of the Committee on Environment and Public Works




[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________
                               
                               
                               
                               
                            U.S. GOVERNMENT PUBLISHING OFFICE
88-905 PDF                      WASHINGTON : 2015                            
                               
________________________________________________________________________________________                               
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f99e8996b99a8c8a8d919c9589d79a9694d7">[email&#160;protected]</a>  
                       
                               
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             LARRY E. CRAIG, Idaho
AMY KLOBUCHAR, Minnesota             LAMAR ALEXANDER, Tennessee
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 30, 2008
                           OPENING STATEMENTS

Clinton, Hon. Hillary Rodham, U.S. Senator from the State of New 
  York...........................................................     1
Schumer, Hon. Charles, U.S. Senator from the State of New York...     2
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     4
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     5
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...     6

                               WITNESSES

Thomas J. Madison, Jr., Nominated by the President to be 
  Administrator, Federal Highway Administration..................     7
    Prepared statement...........................................    10

 
      HEARING ON THE NOMINATION OF THOMAS J. MADISON, JR., TO BE 
ADMINISTRATOR OF THE FEDERAL HIGHWAY ADMINISTRATION FOR THE DEPARTMENT 
                           OF TRANSPORTATION

                              ----------                              


                        THURSDAY, JULY 30, 2008

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 3:15 p.m. in 
room 406, Dirksen Senate Office Building, Hon. Hillary Rodham 
Clinton presiding.
    Present: Senators Clinton, Inhofe, Cardin, Voinovich. Also 
present: Senator Schumer.

       OPENING STATEMENT OF HON. HILLARY RODHAM CLINTON, 
            U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Clinton. We have before us today the nomination of 
Tom Madison to be the Administrator of the Federal Highway 
Administration at the Department of Transportation.
    Of all the things that are going on in the Capitol today, 
this may be one of the most important to the lives of 300 
million Americans. Because clearly, the upkeep of our highways, 
our mass transit systems, our bridges, our tunnels, is a matter 
that we all live with each and every day.
    This Friday will mark the 1-year anniversary of the bridge 
collapse in the Twin Cities in Minnesota. And this tragic event 
served as a wake-up call that our Nation's transportation 
infrastructure is rapidly deteriorating.
    But it is unfortunate that 1 year later, we have yet to 
take the kind of bold, necessary steps to invest in our 
crumbling infrastructure and to ensure the safety and efficacy 
of our transportation system. The National Surface 
Transportation Policy and Revenue Study Commission estimates 
that $225 billion each year is required--we have been joined by 
Senator Schumer. Welcome.
    It has been estimated that $225 billion each year is 
required to meet the Country's transportation infrastructure 
needs. We are currently spending at 40 percent of that level, 
which means that with each passing day, we fall farther and 
farther behind. One in four bridges in our Country are either 
functionally obsolete or structurally deficient. Usually built 
to last 50 years, the average bridge in our Country is 43 years 
old. And the cost to repair or modernize the Nation's bridges 
is $140 billion.
    All you have to do is look at the costs associated with raw 
materials, steel, asphalt, concrete and earthwork. Those costs 
have risen by 50 percent in the past 5 years, so it is even 
more difficult to build and maintain our existing structures. 
And the Highway Trust Fund will likely have a $5 billion 
shortfall.
    Now, on a very parochial basis, I am deeply concerned for 
what this infrastructure crisis means for New York. As a New 
Yorker and a former Commissioner of the New York State 
Department of Transportation, Mr. Madison is well aware of the 
unique, unparalleled and growing transportation needs of our 
State. New York's transportation system includes 240,000 miles 
of highway, 17,400 bridges, 130 public transit systems, a 4,800 
mile rail network, 485 public and private aviation facilities, 
and 12 major public and private ports.
    New York City's mass transit system alone handles nearly 
one-third of the Nation's transit passengers. That means it 
provides 8.5 million rides each day and over 2.6 billion rides 
each year. Important parts of our infrastructure, like the 
Brooklyn Bridge and the New York City subway system, are more 
than a century old. And in our State, 38 percent of our bridges 
are classified as structurally deficient or functionally 
obsolete. That may not necessarily mean that the bridge is 
unsafe to travel on, but it sure means it requires repairs.
    So I am just talking about one State. And we could multiply 
that 50 times over. Our needs are great and growing. We cannot 
continue to rely on the investments of past generations while 
foregoing investments in our infrastructure to serve future 
generations. What is required is decisive action and 
leadership. I have long championed innovative measures to fund 
our Nation's infrastructure. I am a co-sponsor of the National 
Infrastructure Bank Act of 2007, which establishes a federally 
backed independent entity that will evaluate and finance large 
infrastructure projects of regional or national significance.
    After the Minnesota bridge collapse, this Committee passed 
legislation that Senators Voinovich, Carper, Coleman and I 
introduced, called the National Infrastructure Improvement Act, 
which establishes a national commission on the infrastructure 
of the United States. We all know that this Committee will be 
prepared to take up the next version of the Highway Bill next 
year. We need to begin that process now.
    There are a lot of serious questions that we will address 
with this nominee over the course of this hearing. But I am 
delighted that Mr. Madison is here, very pleased that the 
President has nominated him for this critical position, and 
looking forward to his testimony and his answers.
    I would like now to turn to my colleague from New York, 
Senator Schumer.

          OPENING STATEMENT OF HON. CHARLES SCHUMER, 
            U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Schumer. Thank you, and I want to than you, Senator 
Clinton, for the great work you have done for New York and for 
the Country on this Committee and in so many other areas, and 
for your statement, which is on the money, as usual. I also 
want to thank our former New Yorker and friend, Chairwoman 
Boxer, for holding this hearing as well, and welcome, of 
course, my colleague from Maryland, Senator Cardin. He has 
visited New York on many occasions. I have asked him to do so 
on many occasions as well.
    In any case, it is good to be here. I want to thank the 
Committee for allowing me as a non-Committee member to speak 
and giving me the honor of introducing Thomas Madison, Jr., 
before he is confirmed to be the Administrator of the Federal 
Highway Administration.
    As Senator Clinton has so acutely pointed out, 
transportation needs have reached a critical point in our 
Nation's history. It is imperative that our Nation's aging 
highway infrastructure be adequately maintained and kept in a 
good State of repair. The Federal Government can't sit on its 
hands, it must expand its involvements in such efforts. And it 
is not too late for this Administration to make the right moves 
to get us back on the right path. I would say that this 
nomination is one such move, and I am so glad that Mr. Madison 
was nominated.
    The condition of our Nation's infrastructure is not only a 
central part of our economic well-being, but critical to our 
personal safety. The State of our Nation's infrastructure is 
not something we can be proud of. Many of the roads were built 
in the period right after World War II in the 1950's and 1960's 
and sort of left alone, and it is 50 years later, and now a 
massive job to make sure that they stay in tip-top shape is 
needed. We know just looking at the I-35 deck truss bridge in 
Minnesota, we know that hasn't been done in too many places.
    So I am pleased to present Mr. Madison to the Committee, 
and I voice my support on behalf of his nomination to Federal 
Highways. I know that he prioritizes transportation 
infrastructure, and his impressive resume demonstrates his 
readiness to face many challenges he will face. Thomas Madison 
is a native of Binghamton, New York, a graduate of the State 
University at Geneseo, one of the finest undergraduate schools, 
really, in the Country. In Binghamton, he served for 2 years as 
deputy Broome County executive, and then served as Governor 
George Pataki's regional representative before moving to Albany 
as the Governor's deputy appointment secretary.
    Mr. Madison continued in his career in public service as 
the executive deputy director of the New York State Consumer 
Protection Board, then director of State and Local Government 
Affairs for the Governor. After serving as Deputy Secretary to 
the Governor for Transportation, he was appointed Commissioner 
of New York State Department of Transportation. And it was in 
this position Mr. Madison so instrumentally laid the groundwork 
for the future of transportation in New York State, which, as 
Senator Clinton noted, is home to 237,000 miles of highway lane 
and 17,500 bridges.
    Mr. Madison can tout the Rebuild and Renew New York 
Transportation Bond Act of 2005, a $2.9 billion statewide 
initiative that targeted the rebuilding and improvement of the 
State's highway and bridge network and mass transit 
transportation systems, as well as fund airport, rail freight 
and port projects. And this 5-year strategy for New York 
State's transportation was decisive in ensuring our State's 
ability to keep roadways safe while expanding public 
transportation.
    I should note that for part of the time that Mr. Madison 
was State Highways Commissioner, my wife was the city head of 
the DOT, and spoke, when I asked her about Mr. Madison, she 
spoke very highly of him, and she is a tough, tough grader.
    Nationally, we face needs similar to New York's, as I 
mentioned before, the collapse of the deck truss bridge in 
Minnesota was a bellwether of the condition of bridge stock in 
this Country. Similarly, we are facing complex new problems in 
transportation funding, as our trust fund depletes at an 
alarming rate and energy prices continue to skyrocket.
    On a personal note, Mr. Madison is also a former member of 
the Peace Bridge Authority Board in Buffalo, New York, where he 
was a vocal proponent for the construction of a signature 
bridge spanning the city of Buffalo and southern Ontario. 
Senator Clinton and I are advocates for such a bridge. It 
actually was first proposed by Senator Clinton's predecessor, 
Senator Moynihan, as a great thing for Buffalo. We have been 
working long and hard to make this happen, and we are getting 
close.
    I have spoken to Mr. Madison, and he knows of our great 
concern about having a review process that is too long and too 
lengthy. He has assured me that he both supports the signature 
bridge and wants to move the process forward as quickly and as 
smoothly as possible. That is a major plus for me, because we 
have been working with your acting Administrator, who has been 
doing a good job trying to help us, but we have to get this 
done by September. The Peace Bridge is a crucial link in 
commerce and tourism between the U.S. and our Canadian 
neighbors.
    For those reasons, we are eager to continue talks with 
Highways and U.S. Fish and Wildlife Service to see that the 
city of Buffalo and western New York get the magnificent 
structure it so deeply deserves. I can assure you, Mr. Madison, 
that Senator Clinton and I want you to get in there soon so you 
can help move this process forward.
    I am confident that Mr. Madison's acute awareness of the 
need to invest in strategic and innovative transportation 
infrastructure planning will make him a worthy Administrator of 
Federal Highways. Once again, I thank Chairman Boxer, Ranking 
Member Inhofe, Senator Clinton and all of my colleagues for 
holding this hearing and efforts to expeditiously confirm 
Thomas J. Madison, Jr. of New York to be the Federal Highway 
Administrator.
    Thanks very much for your time.
    Senator Clinton. Thank you very much, Senator Schumer.
    Now we turn to Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman.
    I also don't really need to talk that long. I am really 
impressed with this guy. We had a chance to come by and talk to 
him, and learn of his interest. We are dealing with something 
here that is really not partisan. So many things in this 
Committee are, this is not.
    We have a crisis out there. I think we know what has 
happened to the Highway Trust Fund, the receipts that are down. 
We are going to have to do something about it, and we are going 
in right now to do a lot of the preliminary stuff for the 2009 
reauthorization bill. So for this reason, I really believe that 
Mr. Madison is the right one for the job, the right background. 
We need to get him confirmed, in my opinion, prior to 
recessing.
    So I think that I agree with everything that was said by 
Senator Schumer, in this case, and also that we have problems 
in Oklahoma that are really serious. The other day,I think it 
was USA Today that showed the condition of the roads 
nationwide, and Oklahoma is now dead last. It used to be second 
from the bottom to Missouri.
    So we have a lot of things that need to be done. Senator 
Boxer and I authored a letter signed by 68 other Senators 
urging immediate action on these problems dealing with the 
shortfall. And you and I talked about that in my office, so I 
think we will try to get this done.
    Thank you, Madam Chairman.
    Senator Clinton. Thank you very much, Senator Inhofe.
    Senator Cardin.


         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Thank you, Madam Chair.
    Mr. Madison, welcome. We look forward to your testimony and 
we thank you for your public service.
    Madam Chairman, I ask that my entire statement be made part 
of the record.
    Senator Clinton. Without objection.
    Senator Cardin. Let me just emphasize a few points. I agree 
with Senator Inhofe, we have a real funding problem. I will be 
interested to hear how you intend to provide the leadership so 
that we can meet our transportation highway needs.
    I would just urge you that we need a highway administrator 
who is going to provide the independent judgment as to how 
realistic our funding sources are in meeting our goals. I look 
forward to your testimony to give us that type of assurance 
that we are going to get the best information, so that we can 
make the right policy decisions.
    I am also interested in your views as to how you work in 
coordination with the other agencies and programs involved in 
our transportation strategies in this Country as it relates to 
quality of life, as it relates to the environment, as it 
relates to an energy policy for our Country. In Maryland, the 
vehicle travel miles increased by 17 percent between 1998 and 
2006. There is 56.6 billion miles traveled. So highways are 
very important to the quality of life in Maryland.
    The good news in this increase is that the number of 
vehicles with a single operator have declined, which means we 
are being more efficient in our transportation. But we have to 
get more people into public transportation. We need to do that 
for many reasons. I would be interested as to how you view your 
position as it relates to an overall strategy for our Country 
in the goals that we are attempting to meet in public 
transportation and in energy.
    Last, let me just mention the environment. This is the 
Environment and Public Works Committee. We know that 
transportation has a direct impact on global climate change and 
other environmental issues. Our automobiles add greatly to the 
pollutant problems. Highway construction adds to the runoff 
issues. I would be interested as to your sensitivity as we deal 
with the highway program how we also are going to be sensitive 
to the environmental consequences of those actions.
    So I hope that during the course of this hearing we will 
have a chance to hear your views on these and other subjects. I 
thank you, Madam Chair.
    Senator Clinton. Thank you, Senator Cardin.
    Senator Voinovich.

        OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. Thank you, Madam Chairman.
    First of all, thanks for this hearing. I want to welcome 
you, Mr. Madison, and thank you for your willingness to serve. 
It is just a short while, but you are coming in and picking up 
the baton. It is real important, thank you.
    I also want to thank your family for the sacrifice that 
they are going to make for you to serve here.
    I know you have extensive experience dealing with 
transportation infrastructure. I am particularly impressed with 
the extent of your management experience. I believe your 
experience both in the public and private sectors will serve 
you well in this position, and I was glad to hear part of 
Senator Schumer's testimony.
    I appreciate the opportunity to discuss with you one of the 
most significant challenges facing our Nation, the maintaining 
of our aging transportation system. I have always said that if 
we don't develop a new infrastructure of competitiveness, this 
Nation is not going to be able to guarantee to our children and 
grandchildren the standard of living and the quality of life 
that we enjoy. One of the areas where we have really fallen 
down is the area of our physical infrastructure.
    I am really interested in it because of the State of Ohio. 
As you know, Ohio is sometimes referred to as the Nation's 
crossroads. We are the tenth largest highway network, the fifth 
largest volume of traffic, the fourth largest interState system 
and the second largest number of bridges of any State in the 
United States. This bridge issue is really a big deal.
    Throughout my career, I have worked to increase funding for 
our highways. During consideration of SAFETEA-LU, I pushed for 
increased funding because I was concerned that the total 
funding levels were well below what was appropriate and 
necessary for the Nation's infrastructure needs. Even the 
Federal Highway Administration, at that time, acknowledged that 
it wasn't enough money to get the job done. And I said that, in 
effect, what we would do is we would fall behind during this 
period of time.
    And as you well know, we have fallen behind. The money has 
evaporated because of the cost of oil and also the cost of 
steel. And as you know, we have a projected shortfall of about 
$3.1 billion. I think one of the things that you are going to 
have to get on right away is to make sure that money is found, 
so that we can go forward. I think you know that highway 
projects are being canceled, and States and locals have had to 
step up and assume more of the financial burden. They are doing 
it at a time when a lot of States are in bad financial shape, 
not as bad as ours, but pretty bad.
    I look forward to hearing your ideas for addressing the 
shortfall and your ideas on ensuring that enough funding is 
being invested in our highways infrastructure. I think Senator 
Cardin's statement about public transit is also extremely 
important, somehow it gets left out in so many of these 
considerations.
    Earlier this year, I think you are aware, the National 
Service Transportation Policy and Revenue Study Commission 
released a report entitled Transportation for Tomorrow. The 
commission found that the Nation is outgrowing the current 
surface transportation system, threatening passenger and 
freight mobility and our economic competitiveness. I believe 
our failure to invest in improvements necessary to keep pace 
with our growing population and increasing demands remains a 
significant roadblock in the way of moving our economy forward. 
American businesses cannot compete globally without strong 
infrastructure at home.
    The commission also pointed out that on average, major 
transportation projects take almost 13 years to complete. I 
have to say that I have watched a lot of the projects, and 
there are some techniques that you can do to move them ahead. I 
know we had one several years ago in Cleveland and they said it 
wouldn't get done, and we got everybody together. You know what 
I am talking about, getting everybody and trying to get them on 
the same team.
    But the fact of the matter is, it just takes too doggone 
long for us to get something going. If you could kind of look 
at that system during this period of time and come back and 
recommend to us, because we are going to be doing a highway 
bill next year, and how you think we can streamline that 
process so it doesn't take so much time, it would be most 
appreciated.
    The other thing, too, is after you get over there, this 
Committee really hasn't gotten started looking at the next 
highway bill. I know Representative Oberstar over in the House 
has had many hearings already and he is already thinking about 
it. I think you ought to encourage the Senate to get going and 
doing some preliminary work so that next year we can get at it 
right away, and we are not going to have a situation where we 
don't pass the highway bill on time, and we did what we did 
last time, it laid over for about a year.
    So set some goals and leave your mark.
    Senator Clinton. Good advice. Thank you, Senator.
    Now we turn to our witness, Mr. Madison.

STATEMENT OF THOMAS J. MADISON, JR., NOMINATED BY THE PRESIDENT 
      TO BE ADMINISTRATOR, FEDERAL HIGHWAY ADMINISTRATION

    Mr. Madison. Thank you very much, Madam Chairman Clinton, 
Vice Chairman Inhofe, members of the Committee. Thank you for 
the opportunity to appear before you as you consider my 
nomination as Administrator of the Federal Highway 
Administration.
    I am deeply honored by the confidence the President has 
placed in me as his nominee for this important position, with 
concurrence, of course, from Transportation Secretary Mary 
Peters. If confirmed, I will work closely with you to 
understand your perspectives and respond to your priorities 
regarding our Nation's Federal Highway Program.
    It is a particular honor that both New York Senators are in 
attendance today. Senator Schumer, thank you very much for the 
gracious introduction, and Senator Clinton, thank you very much 
for all your help and support. New Yorkers and all Americans 
should be thankful for the representation that you give us all.
    I want to also recognize my amazing family that is here 
behind me, my wife Tracy, my children Morgan and Brooks, who 
you should be fortunate are not here at six and 4 years old. It 
would be lively. My parents, Pat and Tom Madison, and my in-
laws, Kathy and Pete Manzo. Their steadfast love and support 
has made it possible for me to sit before you today.
    Senator Inhofe. We don't know which ones they are, would 
they raise their hands?
    Mr. Madison. Thank you, Senator.
    We meet today as believers in America's rich and important 
transportation legacy. I am very appreciative of the leadership 
our governments have provided in moving freight and people with 
efficiency and innovation.
    A half century ago, Dwight D. Eisenhower created the 
national highway system that transformed America from a Nation 
of streets and roads to one of highways and interstates. 
President Eisenhower envisioned a vital network linking ports 
and airports, stimulating an agricultural and manufacturing 
economy, fostering new business growth, encouraging tourism and 
exploration, and mobilizing our troops and equipment for our 
national defense.
    Today we are the stewards of what was conceived and built 
before us, even as we pursue that new vision for a future of 
our Nation's transportation infrastructure that we can all be 
proud of. I am very proud personally to be considered for 
participation in that dialog.
    Many years of work in State and local government and in the 
private sector have provided me with the skills, knowledge, and 
qualifications necessary to perform the duties of Federal 
Highway Administrator. If confirmed, I am confident that my 
executive management background, my strong work ethic and my 
passion for these transportation issues will help me 
effectively lead the FHWA.
    Throughout my career, positions of increasing 
responsibility and complexity have taught me about the role of 
government at all levels and given me a strong sense of civic 
purpose. I have experienced professional growth, enjoyed great 
personal reward and in every assignment I have always redoubled 
my commitment to the tenets of public service.
    This was especially true during my tenure as chief 
transportation advisor to the Governor of New York and later as 
the State's transportation commissioner. In those roles, I 
oversaw New York's vast transportation system, including port 
and aviation facilities, freight and passenger rail services, 
local transit providers, bicycle and pedestrian programs, and 
as you have heard already, 240,000 lane miles and 17,400 
bridges.
    Deep involvement with transportation and infrastructure has 
strengthened my belief that these are among the Nation's most 
important matters to be considered by our Government. While 
this Committee regularly engages in complex transportation 
issues, the significance of our Nation's roads and bridges is 
all too often overlooked by other policymakers and taken for 
granted by the public.
    If confirmed, I believe my desire to raise awareness about 
the vital role of our transportation system and America's 
environmental sustainability, national security and economic 
competitiveness will serve the position well. I am excited to 
meet the challenges and seize the opportunities that lie ahead, 
even during the closing months of this Administration. Pursuing 
congestion relief initiatives, improving mobility and 
reliability, enhancing safety, and exploring new ways to 
maintain, operate and expand our system are critical areas that 
must be considered and addressed.
    With transportation reauthorization upon us, how to pay for 
the growing needs of our aging system is also of paramount 
concern. As funding becomes more constrained and projects grow 
geometrically more expensive, we must accept the reality that 
the traditional pillars of Government transportation financing 
are no longer sufficient. I hope we can work together to 
examine new ways of designing, maintaining, expanding and 
funding our system and provide a seamless transition to future 
stewards of the Federal Highway program.
    I am honored to be considered for this important position, 
and if confirmed, I will work tirelessly and faithfully to 
execute the duties of Federal Highway Administrator.
    Thank you very much for your time and consideration. Now I 
am anxious to answer any questions you might have. Thank you.
    [The prepared statement of Mr. Madison follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Clinton. Thank you very much, Mr. Madison, for that 
excellent statement. And thank you, Senator Schumer, for 
joining us to introduce our witness.
    I want to take the opportunity to ask the first question 
about hat we all view as a crisis. As you know, the Highway 
Trust Funds are expected to hit a $3.1 billion shortfall in 
2009, but new estimates are that it will increase to over $5 
billion. We know the American public is driving less, resulting 
in fewer dollars going into the Trust Fund, which could hasten 
the shortfall even more.
    Now, the Administration has proposed a short-term fix to 
the Trust Fund by transferring $3.2 billion from the mass 
transit accounts. Now, the mass transit accounts are supposed 
to be facing their own solvency crisis by Fiscal Year 2011 or 
possibly sooner, since now more people are using mass transit. 
So we have a set of problems that are interlocked.
    At the same time, the Congress has proposed legislation to 
transfer $8 billion in general revenue to the Highway Trust 
Fund, but the Administration does not approve of that and has 
threatened to veto it.
    So could you share with us your views about this short-term 
crisis of the shortfall in the Highway Trust Fund, the 
Administration's proposal to transfer money out of the mass 
transit account, and the congressional suggestion through 
legislation that has been introduced to try to get general 
revenues? Because we all know that if we don't shore up the 
Trust Fund now, States could lose about $14 billion, and that 
would mean they would have to not only postpone and stop 
projects, but we would lose close to 380,000 jobs. I think New 
York State alone would lose $430 million.
    So Mr. Madison, would you address these two interlocking 
problems and give us your views?
    Mr. Madison. Certainly. Thank you for the question, Senator 
Clinton.
    And I am glad of the way you framed it, we have a short-
term issue that we need to talk about, but it is symptomatic of 
the much larger problem that we have all touched on here this 
afternoon. I don't think that there is an easy answer or a 
specific individual answer to plugging a funding gap, whether 
it is the short-term one that we are confronted with now, or 
looking beyond the end of this reauthorization period, trying 
to come up with new and different ways to finance the system.
    I think as I have mentioned to you previously, I believe 
that the Administration's proposal has merit in that it takes a 
transfer on an as-needed basis from another transportation fund 
that at least through 2009 is projected, the transit side is 
projected to have a fund balance at the end of that period.
    So on an as-needed basis, I think it may be reasonable, 
again, as a short-term solution, to consider that as-needed 
transfer of funds, which, I believe the proposal is such that 
those funds would be repayable advances.
    But there is certainly also merit in looking at other 
potential solutions in combination with that. There isn't a 
singular answer. I think that the $3.2 billion gap that has 
been referenced is anticipated by some calculations to grow 
beyond that number. So it is something that I hope to delve 
into more deeply and specifically, and if confirmed, I pledge 
to work with you and all of you on this Committee to identify 
what the best solution is, short-and long-term.
    Senator Clinton. Thank you, Mr. Madison. We look forward to 
that, because obviously it is a looming crisis.
    Mr. Madison, I know you are well aware of the issues 
surrounding the Peace Bridge in Buffalo. For the past few 
years, there has been a lot of discussion about shared border 
management at the site of the Peace Bridge. There are some 
estimates that shared border management would save time and as 
much as $100 million in the construction of the new plaza and 
bridge at the Peace Bridge.
    As a former member of the Peace Bridge Authority, you know 
how desperate we are to get this bridge built. As Senator 
Schumer said, my predecessor, Senator Moynihan, when he served 
on and then chaired this Committee, was a great advocate of the 
signature bridge. That has been a long time, since he started 
that advocacy.
    Do you believe that shared border management would be the 
best solution for the site of the Peace Bridge? And whether you 
believe that or not, what do you think would be the best plan 
to ease congestion at the border and deal with the challenges 
that will be presented to the Peace Bridge Authority if we move 
forward in the absence of shared border management?
    Mr. Madison. Thank you, Senator.
    I was a member of the Peace Bridge board. I was very much 
in tune with all the specific issues and proposals at that 
time. I have followed it less closely in the intervening years. 
However, you are exactly right, it is a critically important 
trade route with our largest trading partner. There are major 
congestion issues along the border there. It is a process that 
has taken a very, very long time to resolve itself.
    On the shared border management issue, I know that one of 
the alternatives in the environmental process remains a shared 
border management scenario. In fact, the way the footprint is 
currently configured and the way that, I don't know if you 
would call it temporary, but the current Customs process is 
working. It includes kind of a modified version of shared 
border management.
    It is another issue that I would really need to roll up my 
sleeves and get into more specifically and understand the 
dynamics and what role the Federal Highway Administration would 
play in a solution there. I also know, Senator, at least it is 
my understanding, that one of the primary problems with shared 
border management right now lies with the Department of 
Homeland Security and its reservations about some of the 
interplay between our two borders and police enforcement 
issues, et cetera. So it is a critically important issue and 
one that we need to address quickly.
    I would like to State, as Senator Cardin mentioned, the 
first word of your Committee is environmental. I would in no 
way propose that we short-circuit an environmental process. But 
it is an environmental process that has been in existence for a 
long time, and many, or most of the issues I think have been 
vetted pretty clearly. I know there is an issue with the 
signature structure selection and I can pledge to you that I 
will work with folks at the Peace Bridge as well as Federal 
Highways to understand what those concerns are, what Fish and 
Wildlife has expressed in terms of its reservation and see if 
there is a solution that we can come up with in the short term.
    Senator Clinton. Thank you very much.
    Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman.
    Several things have been mentioned so far, perhaps on 
transfers being made. An interesting thing about this $8 
billion transfer, and I think Senator Clinton and I would 
probably, I don't know whether she would support it or not, I 
would support it, is that if you look back historically, and 
this young lady behind me was with me for 8 years, we date all 
the way back to the middle 1980's on the transportation 
committees in the House and now here. So we have watched this 
as it has taken place and gone through this kind of a 
transition where we used to have more than enough to take care 
of the needs. As you pointed out, this has been going on since 
the Eisenhower Administration, and it seemed to work fine until 
just fairly recent years.
    It was during the Clinton administration that, at that time 
we had huge surpluses. I can't criticize President Clinton for 
his effort, although I remember being on the floor when that 
happened, taking the $8 billion out of the surplus and putting 
it in the General Fund. That was part of the Balanced Budget 
Act of 1998.
    But I objected to that at that time, because we were all 
looking at what might be happening in the future, about the 
increase in congestion. We were not really addressing 
everything properly. So I tried to convince the White House, I 
said, we are actually trying to reverse something that in my 
opinion shouldn't have taken place before. As far as the mass 
transit account, I know that we would differ up here 
geographically. We have different ideas about what to do on 
that.
    But this doesn't solve the problem. What we recognized in 
2005 in the reauthorization bill, and we put stuff in there 
saying we are going to study this, because we know that we 
can't continue to rely on the Highway Trust Fund through the 
normal taxation system, not dreaming that we would end up 
having the increase in gas tax that would cause the decrease in 
revenues. But that is where we are today.
    And you and I talked in my office about all the ideas they 
have, and there are different experiments that are going on 
right now. I know in Texas, Ohio, they are trying some things 
in Ohio, in Virginia on non-truck lanes and a lot of other 
places where they are talking about putting tolling on right-
of-way of existing highways, a very controversial thing and 
people are going to be upset about it. We have to solve the 
problem.
    The partnership ideas, to me, are really worth looking at. 
Because you have to have an infusion, in my opinion, of private 
funding where they see there might be an opportunity for the 
free enterprise system to work, and let's look at all these 
things.
    When we were having our meeting, we had a hearing on this, 
Senator Boxer said, and I was surprised to hear her say it, but 
it made sense to me, that if you go back historically and look 
at the amount of money that comes into the Highway Trust Fund, 
that was to take care of maintenance and take care of some 
bridges, which is my major concern right now. And maybe we 
should go back to its original concept and have all these other 
things, whether it is mass transit, environmental, safety and 
all these things, come from a different funding source. And 
let's see where they measure up in terms of public support to 
let that happen.
    So these are all things that we talked about, but we don't 
have any solutions, as you and I talked about in my office. I 
think it would be appropriate to pursue that a little more than 
we already have in this hearing, yet I am not expecting 
anything to really come out right now on the solution. But we 
have to face it, because it is a crisis today that wasn't there 
10 years ago. We have to recognize that and do something about 
it.
    So having looked at these options, the three that I 
outlined, any of them or all of them look worth pursuing to 
you?
    Mr. Madison. Short answer, yes, Senator. Absolutely. I 
believe that we have a very historic opportunity before us 
right now, and it is one of the reasons I am so excited to be 
considered for participation in the dialog, because we are at 
the threshold of this new reauthorization of how we finance our 
transportation infrastructure.
    There has to be a real departure from the way that we have 
done things in the past. I think we need to consider innovative 
financing mechanisms like you referenced, public-private 
partnerships, congestion pricing alternatives and motor fuel 
taxes, which have been part of those traditional Government 
pillars that I mentioned in my opening statement, are always 
going to be a part of our funding system, I believe.
    We need to expand our view and have an honest dialog about 
what it means to infuse private equity capital into our system, 
whether it is through concession agreements or other options. I 
think part of it, frankly, is an educational process. I found, 
at least while serving in New York, we were in the process of 
negotiating a new multi-year capital program and at the same 
time we were promoting a $2.9 million bond referendum.
    It was pretty compelling to me that once you sat down with 
stakeholders and you explained the importance of our 
infrastructure and our highway system to every aspect of 
people's lives, to our environmental sustainability and our 
economic competitiveness, and the safety and security of our 
Country, and you start to draw those connections, it is 
something that people don't think about and sort of take for 
granted. But now they have become a little bit more open to 
different ways of thinking about how to finance our 
transportation system.
    Senator Inhofe. I appreciate that.
    I know my time has expired, Madam Chairman. Just one thing 
I wanted to get your reaction on. Oberstar, over in the House, 
has passed in the House a bridge bill. I am not sure what my 
feelings are on that. I am a little reluctant to start piece-
mealing this thing until we come up with a strategy to take 
care of all of these problems, even though my State of Oklahoma 
has the greatest bridge problem. Do you think we are better off 
to try to address this all comprehensively rather than to try 
to do it piecemeal?
    Mr. Madison. I am not familiar with all the specifics of 
that bill. But I will say that much like the Highway Trust Fund 
shortfall, I think we need to address the bridge funding issue 
in the short term and set the stage for a vigorous and open 
dialog about financing our entire system going forward with a 
revolutionary reauthorization bill.
    Thank you.
    Senator Clinton. Senator Cardin.
    Senator Cardin. Thank you, Senator Clinton.
    Again, Mr. Madison, thank you very much. I certainly 
support the concerns that have been raised to make sure that we 
have both the short-term and long-term funding for the highway 
system in this Country and the maintenance of that system, 
including our bridges.
    I want to turn to the environmental front for one moment. 
Stormwater runoff is a serious issue, a serious problem on 
pollution. This Committee has taken action that the Federal 
Government, in building construction, use best practices on 
stormwater runoff. The construction of highways clearly has a 
major impact here.
    I am interested in your view as to the use of the best 
practices as we look at the design of new highways and bridges 
to be sure that we are mindful of using the best practices in 
managing stormwater runoff issues.
    Mr. Madison. Thank you, Senator.
    I am proud to say, proud as a New Yorker to say that New 
York has been a leader in environmental initiatives in many 
areas, but particularly with respect to infrastructure 
construction. There are many best practices that were initiated 
in New York that have been replicated by other States and have 
been adopted federally in looking at the broader picture of how 
to manage and protect the environment while these projects are 
underway.
    I can tell you that I am familiar with what we did in New 
York. I understand the FHWA's role as it currently is. And 
understanding that is a priority for you would be something 
that I would look into right away.
    Senator Cardin. I thank you for that.
    Our States are concerned about the additional impact on 
costs to maintain infrastructure because of the impacts of 
global climate change. We have seen sea level increases. I 
represent the State of Maryland. On the coast, we are being 
challenged by our roads and bridges because of sea level 
changes. We have increased flooding in this Country that is 
putting a stress on our transportation system. And our States 
are having a very difficult time dealing with this increased 
burden.
    Can you just tell me how you will deal with these increased 
challenges brought about by the impacts of global warming as 
you look at how we are going to be able to finance our 
transportation system in this Country?
    Mr. Madison. Certainly the environmental sustainability is 
a primary goal and issue that the Federal Highway 
Administration deals with currently. I think that given the 
context of your question, it is something that we need to 
examine closely going into the next reauthorization period, and 
make sure that the kinds of investments that we make are 
balanced across the board. Understanding the impacts that we 
have on the environment, but also looking at other areas where 
financing needs to be balanced very carefully.
    But the environmental process is something that should 
continue to play a predominant role in the thinking and 
guidance that FHWA provides.
    Senator Cardin. And I am not trying to get you involved in 
any opinions as to the impact of global warming itself, but we 
do have sea level rise increases, we do have increased flooding 
conditions in this Country. We have seen it this year, it has 
been a trend. We know what the records are showing. It is going 
to put a real stress on our States.
    As we talk about trying to finance our highway system here 
at the national level, our transportation system, our States 
are really being stretched because of the additional challenges 
brought about by these conditions. I think as we look at ways 
particularly to deal with restructuring of our system of 
finance, we have to take that into consideration. I would just 
urge you to take a look at the good science here and try to be 
mindful of this as we move forward on, I hope, corrections on 
our transportation system.
    Mr. Madison. I will, Senator, thank you.
    Senator Cardin. Thank you, Madam Chair.
    Senator Clinton. Thank you, Senator Cardin.
    Senator Voinovich.
    Senator Voinovich. Thank you, Madam Chair.
    We all have lots of problems. And most of us have a goal 
that we are going to be the least reliant on gasoline of any 
country in the world, that is our goal. If we achieve it, it 
means the traditional way of collecting taxes isn't going to 
take care of our highway system, so that is an issue that needs 
to be thought about very carefully. We have had projections 
that just to take care of the bridge problems, just fix them 
up, $200 billion during the next 10 years.
    It is interesting, Madam Chairman, that the next 2 years we 
are going to spend $240 billion in Iraq. That is something that 
we need to look at. It is a lot of money going over there that 
is needed for things we can be doing here in our own Country.
    The issue of streamlining, which I am sure you were 
frustrated with when you had the job in New York, the 
Chairwoman has talked about the Peace Bridge. I am very active 
in the U.S.-Canadian Interparliamentary Group, and we are real 
concerned about the Ambassador Bridge and how that is going to 
be handled. Both those bridges really are important to our 
continued relationship with Canada. They are our No. 1 trading 
partner. Our economies are integrated.
    My State has a gigantic surplus with Canada, and all of us 
are concerned about what is going to happen. If you are 
familiar with the situation in Michigan right now and Canada, 
really worried about this whole thing.
    Then you mentioned trying to work also with the Department 
of Homeland Security to try and fold that aspect into it. Then 
the new bridge thing, one of the things that we have, the Brent 
Spence Bridge that goes between Kentucky and Ohio, it is the 
second most used bridge on the interState system. I wonder on 
occasion, is it fair to say to a State that you have to take 
the money to do this bridge out of your hide in terms of your 
allocation from the Federal Government, how to do that, and 
some ideas about how that situation could be handled.
    I would really be interested in knowing what your 
priorities are. I don't know what your ambitions are, but you 
have a shot at this thing, and I would like to know, if you get 
the job, what kind of legacy would you like to leave in a short 
time?
    And by the way, I probably shouldn't bring this up, but you 
just got endorsed by two big Democrats.
    [Laughter.]
    Senator Voinovich. Regardless of who is elected President, 
they are going to be looking for somebody really good, somebody 
over in that Department. So just for the record, you know there 
is a possibility there.
    Mr. Madison. Thank you, Senator.
    As Senator Inhofe mentioned, and I hasten to reiterate, 
transportation and infrastructure issues typically aren't 
partisan issues. I think the challenges that we have in front 
of us with this next reauthorization and making sure that we 
focus on the right things, balance the right kinds of funding, 
whether it is on environmental issues, looking at the 
possibility of innovative financing mechanisms, congestion 
pricing, intermodal balancing of the system, so that we can 
share the burden more fairly. These are all things, all part of 
a dialog that needs to be on the table. And it speaks to 
America's economic competitiveness and our sustainability.
    Senator Voinovich. Forgive me for interrupting, but what I 
am interested in is, have you sat down, in thinking about this 
job, and you have been through the mill and had to deal with 
the Department, and said to yourself, son of a gun, if I get 
this job, here are the two or three things I am going to really 
get after, because they have been a source of problems for 
everybody throughout the Country? Could you give me two or 
three ideas that are like right at the top of the list? What 
would you put down?
    Mr. Madison. Understood, Senator. Well, I guess the first 
thing I would say, and I think it is consistent with at least 
recent proposals by this Administration, is to identify ways 
that we can improve, make process improvements in order to 
expedite some of the jurisdictional areas that the Federal 
Highway Administration is involved with. Being a partner with 
States in a constructive way.
    But there are a lot of areas, a lot of different individual 
areas of responsibility at the Federal Highway Administration. 
There may be opportunities to improve the processes or bring 
together some of those areas to be more responsive from a 
timeframe standpoint.
    To go back to your original question, Senator, if I could, 
because I think it is an excellent one, and one that the folks 
sitting behind me have asked, why are you thinking about going 
there for 5 months, I have really become a transportation 
advocate, and very passionate about these issues. I have had a 
lot of different government, public service jobs over the 
years. But once I started to get involved in this area, I 
started to understand how vitally important it is to people's 
lives every single day. I was one of the biggest offenders in 
terms of taking it for granted or not focusing on the 
importance of it.
    So I guess first and foremost, I would hope to continue to 
be a strong and vocal advocate, raising awareness about how 
important these issues are, and trying to direct public 
attention and the attention of opinion leaders that will have a 
role in the reauthorization process to think differently this 
time around. If I can accomplish that, or even begin that 
process, I will be happy.
    Senator Voinovich. That is great, thank you.
    Mr. Madison. Thank you, Senator.
    Senator Clinton. Thank you very much, Senator, and thank 
you so much, Mr. Madison.
    Do you have any other questions that you would like to ask?
    In order for this Committee and other committees to 
exercise their legislative and oversight responsibilities, it 
is important that the committees of the Congress are able to 
receive testimony, briefings and other communications of 
information. There are four questions we ask every nominee for 
a confirmable position. So let me ask you the first question.
    Do you agree, if confirmed as Administrator of the Federal 
Highway Administration, to appear before this Committee or 
designated members of this Committee and other appropriate 
committees of the Congress, and provide information subject to 
appropriate and necessary security protection, with respect to 
your responsibilities as Administrator?
    Mr. Madison. Yes, Senator.
    Senator Clinton. Second, do you agree, when asked, to give 
your personal views, even if those views differ from the 
Administration in office at the time?
    Mr. Madison. Yes, Senator.
    Senator Clinton. I want to underscore that second question, 
because that has been very difficult in many instances. It is 
important, because clearly, you come before us as someone with 
a great deal of experience and expertise. We want your 
unvarnished opinion and advice.
    No. 3, do you agree to ensure that testimony, briefings, 
documents and electronic and other forms of communication of 
information are provided to this Committee and its staff and 
other appropriate committees in a timely manner?
    Mr. Madison. Yes.
    Senator Clinton. And finally, do you know of any matters 
which you may or may not have disclosed that might place you in 
any conflict of interest if you are confirmed as Administrator 
of the Federal Highways Administration?
    Mr. Madison. No, I do not, Senator.
    Senator Clinton. Well, thank you so much, Mr. Madison. 
Thank you for agreeing to accept the President's appointment. I 
thank your family. Obviously this is a decision that involves 
them as well.
    And we look forward to working with you, should you be 
confirmed, which, as Senator Inhofe said in his statement, we 
hope will be very soon. Because there is a lot of work to do, 
and we need leadership to work with.
    Thank you all very much for being here. The hearing is 
adjourned.
    [Whereupon, at 4:10 p.m., the committee was adjourned.]
  

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
